No. 19–1255

In the
Supreme Court of the United States

Renee Baker, Warden, et al.,
Petitioner,
v.
Jeff N. Rose,
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

Proof of Service

Rene Valladares
Federal Public Defender,
District of Nevada
*Amelia L. Bizzaro
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388–6577
amelia_bizzaro@fd.org
*Counsel of record for Jeff N. Rose.

I certify that on July 1, 2020, I delivered the original and ten copies of
Respondent Jeff N. Rose’s brief in opposition and motion to proceed in forma
pauperis to a third-party commercial carrier for delivery to the Clerk within three
calendar days, pursuant to Rule 29.2.
I further certify that on July 1, 2020, I served the required parties one copy of
the foregoing brief in opposition and motion to proceed in forma pauperis by mail as
addressed below, pursuant to Rule 29.3.
I also further certify that in accordance with Rule 29.3, I served an electronic
version of the foregoing.
Heidi Parry Stern, Solicitor General
Jeffrey M. Conner, Deputy Solicitor General
Charles Finlayson, Senior Deputy Attorney General
Nevada Department of Justice
100 North Carson Street
Carson City, NV 89701
HStern@ag.nv.gov
Dated July 1, 2020.
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Amelia L. Bizzaro
Amelia L. Bizzaro
Assistant Federal Public Defender

